July 23, 2009

DAVID E. WILLIAMS
ACTING VICE PRESIDENT, ENGINEERING

AREA VICE PRESIDENTS

SUBJECT: Audit Report – Overall Equipment Effectiveness: Delivery Bar Code Sorter
         (Report Number DA-AR-09-010)

This report presents the results of our nationwide audit of the Overall Equipment
Effectiveness (OEE) of the Delivery Bar Code Sorter (DBCS) (Project Number
09YG017DA000). We conducted this self-initiated audit to determine reasons for low
OEE on the DBCS nationwide and identify best practices for improving them. We
identified low DBCS OEE from an automation risk model we developed to continuously
monitor and evaluate machine efficiency.1 See Appendix A for additional information
about this audit.

Opportunities for Improving DBCS Effectiveness

Most U.S. Postal Service area OEE percentages were below DBCS performance
targets. Maintenance managers stated that low OEE on the DBCS machines resulted
from inadequately trained staff and lack of coordination between the maintenance and
operations functions. Addressing these issues at mail processing sites could have
lowered maintenance costs by an additional $5.5 million for the 2-year period ending
September 30, 2008, and would lower mail processing costs by $5.1 million over the
next 2 years. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Engineering, in coordination with Area Vice
Presidents:

1. Ensure Maintenance and Operations regularly coordinate to minimize maintenance
   issues and improve Delivery Bar Code Sorter Overall Equipment Effectiveness.

2. Require all machine operators and supervisors to have current Delivery Bar Code
   Sorter training.




1
  Performance Analyses and Risk Indicator Scans (PARIS) identify emerging risks at the district level and ranks them
accordingly. The PARIS maintenance model identifies the highest risk districts from a standpoint of automation
effectiveness, including, OEE and machine under-utilization.
Overall Equipment Effectiveness:                                        DA-AR-09-010
 Delivery Bar Code Sorter


Management’s Comments

Management agreed with both recommendations, stating they will implement best
practices and continue to emphasize cooperation and communication between
Maintenance and Operations. They also have committed to providing the field with
operator training information and agreed to validate DBCS operator training records.
See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and corrective actions should resolve
the issues identified in the report.

The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We will report $5,481,804 in unrecoverable questioned costs and $5,076,183 in funds
put to better use in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Wayne Sharpe, Acting
Director, Engineering, or me at (703) 248-2100.

    E-Signed by Miguel Castillo
 VERIFY authenticity with ApproveIt




Miguel A. Castillo
Acting Deputy Assistant Inspector General
 for Support Operations

cc: William Galligan
    Edward Gamache
    Katherine S. Banks




                                            2
Overall Equipment Effectiveness:                                         DA-AR-09-010
 Delivery Bar Code Sorter


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

We extracted OEE percentages for the DBCS machines at mail processing plants.
OEE scores are an indicator of how well the Postal Service maintains and operates mail
processing equipment. OEE measures losses to machine availability, efficiency, and
quality. OEE tells users the percentage of time that equipment, when running, is
producing quality products at an acceptable rate. Tracking OEE during operation
allows:

•       Opportunities for continuous improvement.
•       Consistent and frequent monitoring
•       Everyone to be proactive.

Achieving an OEE score of 85 percent is the Lean Six Sigma and Postal Service
standard for eliminating automation waste that does not add value.

The DBCS is a multilevel, high-speed bar code sorter (BCS). Usage of the Delivery
Point Bar Code allows the DBCS to sort mail in carrier walk sequence, eliminating the
need for additional sorting at the delivery unit. The carrier transports letter trays of
sequenced mail directly to the vehicle for delivery to the customer. The DBCS can also
sort letter mail to carriers in sector-segment sequence using a two pass operation.
Sector-segment sorting places the mail in block face delivery sequence.

Postal Service policies set standards for maintaining and effectively operating
equipment. Management maintenance orders outline the preventive maintenance
procedures districts must perform. Operational standards and guides give instructions
for increasing productivity, reducing missorted mail, and controlling costs.

The following three systems provide information to help management effectively and
efficiently operate equipment and process the mail.

    •   The Web End of Run system reproduces, archives, and summarizes information
        captured during a mail processing run. Web EOR offers standard reports on
        operations, maintenance, and machine configuration data.

    •   The Mail Image Reporting System (MIRS) summarizes pieces at risk captured
        during a mail processing run. The MIRS also offers a number of standard
        reports, including reports for operations, maintenance, and machine summary
        data.

    •   The Activity Based Costing (ABC) system provides detailed cost information on
        mail processing. The ABC system converts operational data into cost




                                            3
Overall Equipment Effectiveness:                                          DA-AR-09-010
 Delivery Bar Code Sorter


        information to identify trends, spikes, and other anomalies and to support
        improvement targets at the plant level.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine reasons for low OEE on the DBCS and identify
best practices for improving them. We focused on factors influencing the quality
element of OEE, specifically, pieces at risk and machine reject rates. The efficiency
and availability elements of OEE, while important, influence costs to a lesser degree
and will be the subject of future OIG reviews.

We visited 10 mail processing facilities in two Postal Service areas and interviewed
plant personnel. We also interviewed plant personnel by telephone in another area. To
test DBCS effectiveness, we reviewed letter mail gross acceptance and reject rates as
described in the Postal Service’s DBCS Standardization Work Instruction Guide and
analyzed pieces at risk reports. To determine monetary impact, we calculated
additional maintenance and processing costs attributed to re-running excess rejected
mailpieces at each plant. We limited the amount reportable in our Semiannual Report
to Congress to maintenance costs as the OIG has previously reported opportunities
associated with manual operations.

We conducted this performance audit from January through July 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on May 28, 2009, and included their
comments where appropriate.

We extracted data from the End of Run system to calculate excess DBCS rejected
mailpieces. To calculate the monetary impact of excess rejects, we used data from the
ABC system. We performed reasonableness tests and found the data sufficiently
reliable to satisfy our audit objective.




                                             4
Overall Equipment Effectiveness:                                            DA-AR-09-010
 Delivery Bar Code Sorter


PRIOR AUDIT COVERAGE

                                      Final
                      Report         Report            Monetary
Report Title          Number          Date              Impact           Report Results
Fort Worth        DA-AR-08-009      August 7,        Unrecoverable    The district generally
District                              2008           questioned       met targets for
Equipment                                            costs of         preventive maintenance
Maintenance                                          $4,738,201 and   of letter mail processing
                                                     $9,476,402 as    equipment; however, it
                                                     funds put to     could increase
                                                     better use.      completion rates.
                                                                      Improved completion
                                                                      rates and better
                                                                      processing procedures
                                                                      can reduce excess
                                                                      mailpiece rejects.
                                                                      Management concurred
                                                                      with our finding and
                                                                      recommendations.
Philadelphia      DA-AR-09-003     January 14,       Unrecoverable    The district did not meet
Metropolitan                       2009              questioned       targets for preventive
District:                                            costs of         maintenance of letter
Overall                                              $5,036,942 and   mail processing
Equipment                                            $10,073,884 as   equipment, resulting in
Effectiveness                                        funds put to     excess mailpiece rejects.
                                                     better use.      Rejected mailpieces
                                                                      required more costly and
                                                                      less accurate manual
                                                                      processing.
                                                                      Management concurred
                                                                      with our finding and
                                                                      recommendations.
Assessment        NO-MA-09-002     May 8, 2009       Unrecoverable    Management has not
of Overall                                           questioned       fully adjusted workhours
Plant                                                costs of         in response to changes
Efficiency                                           $969,495,708     in workload and has not
                                                                      used all automation
                                                                      opportunities.
                                                                      Operational efficiency
                                                                      could be improved by
                                                                      reducing workhours.
                                                                      Management concurred
                                                                      with our finding and
                                                                      recommendations.




                                                 5
Overall Equipment Effectiveness:                                                            DA-AR-09-010
 Delivery Bar Code Sorter


                               APPENDIX B: DETAILED ANALYSIS

Opportunities for Improving DBCS Effectiveness

OEE is an indicator of how well the Postal Service maintains and operates mail
processing equipment. As depicted in Chart 1, OEE data extracted from the Enterprise
Data Warehouse for the 12-month period ending September 30, 2008, revealed that six
of nine Postal Service areas did not meet FY 2008 DBCS OEE targets in the BCS
mode.2 Current Postal Service guidelines3 require an average OEE score of 85 percent
for machine certification.

               Chart 1. FY 2008 DBCS OEE Percentages by Postal Service Area

               Area                  OEE                      OEE Range              Percentage
                                  Percentage                 (Percentage)             Facilities
                                (Target is 85%)            High        Low          Meeting Target
        Capital Metro                  79.0                88.2        45.3                  7
        Eastern                        82.3                93.8          21.9               55
        Northeast                      83.2                96.3          73.6               56
        Southwest                      83.7                93.6          67.3               61
        Southeast                      83.8                96.1          74.6               60
        New York Metro                 84.1                94.3          80.2               58
        Pacific                        85.4                92.7          48.7               68
        Western                        85.6                96.5          72.6               66
        Great Lakes                    87.9                95.9          81.3               94

Minimizing Pieces at Risk Improves Overall Equipment Effectiveness, Minimizes
Rejects, and Lowers Cost

Controlling pieces at risk not only improves the quality element of OEE but minimizes
the level of mail rejects and more costly manual handlings and improves customer
service scores. Pieces at risk are any mailpieces sorted to bins other than their
assigned bins. It measures the risk of a mailpiece not reaching its destination in the
allocated time. In March 2007, the Postal Service established “At Risk and Out-of-
Sequence Goals” to minimize pieces at risk. The Postal Service recognized that
achieving these goals is critical for performance and cost management success. As
shown in Chart 2, few facilities met the established DBCS Pieces at Risk target of 2
percent.



2
  Since approximately 89 percent of all mail processed on the DBCS is run in the BCS mode, we analyzed machine
performance in this mode.
3
  DBCS Standardization: Work Instruction Guide, Mail Processing & Maintenance Version. 0.9, May 2006.




                                                       6
Overall Equipment Effectiveness:                                                              DA-AR-09-010
 Delivery Bar Code Sorter


                          Chart 2. FY 2008 DBCS Pieces At Risk Percentages

                     Area               At Risk              At Risk Range          Percentage
                                      Percentage             (Percentage)            Facilities
                                     (Target is 2%)          High        Low       Meeting Target
              Eastern                       4.0              13.1        2.2              0.0
              New York Metro                3.9              11.3        2.0              4.0
              Northeast                     3.8              18.1        2.0              4.8
              Great Lakes                   3.7               8.0        2.1              1.9
              Western                       3.7              14.4        1.8              5.5
              Capital Metro                 3.5              11.7        1.8              3.6
              Pacific                       3.3               7.9        1.9             15.2
              Southwest                     3.3               9.3        1.5              4.0
              Southeast                     3.0               4.4        1.7             19.7

Mail rejects are mailpieces the machinery could not sort due to a variety of reasons
including mechanical failure, out of sequence, and out of sort plan. Limiting rejects to
standard targets would reduce extra handling and mail processing costs and improve
the quality element of OEE. Postal Service operational standards4 call for limiting
DBCS rejects to approximately 1 percent. As shown in Chart 3, none of the Postal
Service areas met the DBCS mailpiece reject target.


                            Chart 3. FY 2008 DBCS Mail Reject Percentages

                   Area                 Reject                Reject Range           Percentage
                                     Percentage                (Percentage            Facilities
                                    (Target is 1%)           High       Low         Meeting Target
           Pacific                       2.3                 24.4       0.6              19.4
           Capital Metro                 1.8                  9.5       0.7              10.3
           New York Metro                1.7                  5.9       0.7              45.8
           Eastern                       1.6                  8.0       0.5              26.6
           Great Lakes                   1.6                  2.5       0.6              14.6
           Western                       1.5                  2.6       0.6              18.9
           Southwest                     1.5                  2.3       0.6              26.1
           Northeast                     1.4                  2.7       0.6              39.0
           Southeast                     1.4                  2.5       0.6              31.7




4
    DBCS Standardization: Work Instruction Guide Mail Processing & Maintenance, Version 0.9, May 2006.




                                                         7
Overall Equipment Effectiveness:                                                               DA-AR-09-010
 Delivery Bar Code Sorter


Causes and Impact

In general, maintenance managers did not focus attention on OEE targets for the
DBCS. However, they provided the following explanations for not achieving the target
OEE percentages:

    •   Inadequately trained machine operators feed non-machineable mail to the DBCS
        resulting in excessive pieces at risk and machine rejects.

    •   Lack of coordination between the maintenance and operations functions.

Re-running excess rejects results in extra machine maintenance and processing. As
shown in Appendix C, re-running excess rejected mailpieces increased Postal Service
maintenance cost by approximately $5.5 million for the 2-year period ending September
30, 2008. If uncorrected, the cost for the next 2 years will be approximately $5.1 million,
for a total monetary impact of $10.6 million.

Excess mailpieces rejects also increased FY 2008 machine operator costs by
approximately $25 million and manual processor costs by approximately $207 million.
However, we are limiting the amount reported in our Semiannual Report to Congress to
maintenance costs because we previously reported overall operator costs in our report
titled Assessment of Overall Plant Efficiency (Report Number NO-MA-09-002, dated
May 8, 2009).

Best Practices at High Scoring Plants

The Postal Service can further improve OEE scores by implementing several best
practices utilized by sites with high OEE scores. Specifically:

    •   Communicate performance challenges between Maintenance and Operations
        Maintenance should provide at-risk metrics and OEE data to Operations to
        identify problems and improve machine performance. Likewise, Operations
        should promptly report machine troubles to Maintenance so they can resolve
        problems quickly.

    •   Assign responsibility for a specific DBCS machine to an Electronic Technician
        (ET)5
        Assigning a machine(s) to an individual ET increases the quality of maintenance
        because ETs are accountable for their respective machine’s performance. Also,
        an ET who is familiar with a specific machine can more easily troubleshoot
        problems.


5
 ETs perform a full range of diagnostic, preventative maintenance, alignment and calibration, and overhaul tasks on
mail processing equipment and systems.




                                                         8
Overall Equipment Effectiveness:                                        DA-AR-09-010
 Delivery Bar Code Sorter


    •   Ensure DBCS clerks understand machine operating procedures
        A poll of maintenance managers revealed that operator training is the key to
        increased OEE scores. This includes instruction on what type of mailpiece the
        DBCS cannot process.




                                            9
Overall Equipment Effectiveness:                                                                   DA-AR-09-010
 Delivery Bar Code Sorter


    APPENDIX C: CALCULATION OF UNRECOVERABLE QUESTIONED COSTS AND
                        FUNDS PUT TO BETTER USE

                                       Excess DBCS Maintenance Costs



                                       Unrecoverable Questioned Cost6

           Excess Maintenance cost FY 2008                                 $2,729,996
           Excess Maintenance cost FY 2007                                 $2,751,808
           Total Questioned Cost                                                                 $5,481,804


                                Funds Put to Better Use7 (Avoidable Costs)

           Excess Maintenance cost FY 2008                                 $2,729,996
           Number of Years Funds Put to Better Use                            2
           Claimed (10/1/2008 – 9/30/2010)
           Cost of Money                                                     5%
           Total Funds Put to Better Use                                                         $5,076,183
           Total Monetary Impact                                                               $10,557,987


Notes

       •   We used fully loaded ET labor rates as published by the Postal Service for FY
           2008.

       •   Funds Put to Better Use is the present value of excessive preventive
           maintenance cost over the next 2 years. We obtained the cost of money rate
           from the Postal Service’s Decision Analysis Factors published on May 27, 2009.




6
    Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.
7
    Funds the Postal Service could use more efficiently by implementing recommended actions.




                                                           10
Overall Equipment Effectiveness:                           DA-AR-09-010
 Delivery Bar Code Sorter


                         APPENDIX D: MANAGEMENT COMMENTS




                                       11
Overall Equipment Effectiveness:        DA-AR-09-010
 Delivery Bar Code Sorter




                                   12
Overall Equipment Effectiveness:        DA-AR-09-010
 Delivery Bar Code Sorter




                                   13
